No. 19-1070
___________________________
In the

Supreme Court of the United States
JEFFREY ALAN OLSON,
Petitioner
v.
PENNSYLVANIA,
Respondent
________________________________
On Petition for Writ of Certiorari
to the Supreme Court of Pennsylvania
________________________________
BRIEF IN OPPOSITION
________________________________

1600 Arch Street
Philadelphia, PA 19103
484 390 5143
hburns@attorneygeneral.gov

JOSH SHAPIRO
Attorney General of Pennsylvania
HUGH J. BURNS, JR.
Senior Deputy Attorney General
(Counsel of Record)
JENNIFER SELBER
Executive Deputy Attorney General
Criminal Law Division
MICHELLE HENRY
First Deputy Attorney General

i

Questions Presented
Is Birchfield v. North Dakota, which applies the
Fourth Amendment warrant requirement to DUI
blood draws, a “substantive” rule under Teague v.
Lane?

ii

Table of Contents
Question Presented
Table of Citations

i
iii

Constitutional Provision Involved

1

Statement of the Case

2

Reasons for Denying the Writ

4

1. Certiorari is inappropriate for this vanishing
issue.
4
2. Birchfield’s new rule applying the Fourth
Amendment search warrant requirement is
procedural under Teague.
6
Conclusion

14

iii

Table of Citations
Cases
Alleyne v. United States, 133 S. Ct. 2151 (2013)

9

Arizona v. Roberson, 486 U.S. 675 (1988

9

Beard v. Banks, 542 U.S. 406, 417 (2004)

6

Birchfield v. North Dakota, 136 S. Ct. 2160
(2016)

passim

Butler v. McKellar, 494 U.S. 407 (1990)

8, 10

Commonwealth v. Olson, 179 A.3d 1134
(Pa. Super. 2018)

3

Commonwealth v. Olson, 218 A.3d 863
(Pa. 2019)
Edwards v. Arizona, 451 U.S. 477 (1981)

4, 5
9

Hanzik v. Davis, No. 3:16-CV-291, 2017 WL 5178796
(S.D. Tex. Nov. 7, 2017)
4
Johnson v. State, 916 N.W.2d 674 (Minn. 2018)
Lindh v. Murphy, 521 U.S. 320 (1997)
Mitchell v. Wisconsin, 139 S. Ct. 2525 (2019)

11
7
13

iv

Montgomery v. Louisiana, 136 S. Ct. 718
(2016)
7, 10, 12, 13
Morel v. State, 912 N.W.2d 299 (ND 2018)

11

O'Dell v. Netherland, 521 U.S. 151 (1997)

6

Rice v. Souix City Memorial Park Cemetery,
349 U.S. 70 (1955)

5

Roper v. Simmons, 543 U.S. 551 (2005)

7

Schriro v. Summerlin, 542 U.S. 348 (2004)

8

Schmerber v. California, 384 U.S. 757 (1966)

6

Stringer v. Black, 503 U.S. 222 (1992)
South Dakota v. Neville, 459 U.S. 553 (1983)
State v. Vargas, 404 P.3d 416 (NM 2017)
Teague v. Lane, 489 U.S. 288 (1989)
Texas v. Johnson, 491 U.S. 397 (1989)
Welch v. United States, 136 S. Ct. 1257
(2016)
Whorton v. Bockting, 549 U.S. 406 (2007)

13
6
11
passim
7
6, 7, 10
6

v

Constitution and Statutes
U.S. Const. amend. IV

passim

18 Pa.C.S. § 1104

2

42 Pa.C.S. § 9545(b)(3)

3

75 Pa.C.S. § 3803(b)(4)

2

75 Pa.C.S. § 3804(c)(3)(i)

2

1

Constitutional and Statutory
Provisions Involved
The Fourth Amendment to the United States
Constitution provides:
The right of the people to be secure in their
persons, houses, papers, and effects, against
unreasonable searches and seizures, shall not
be violated, and no Warrants shall issue, but
upon probable cause, supported by Oath or
affirmation, and particularly describing the
place to be searched, and the persons or things
to be seized.

2

Statement of the Case
Teague v. Lane, 489 U.S. 288 (1989), generally
makes new constitutional rules inapplicable on
collateral review. One exception, however, is new
“substantive” rules. Substantive rules make certain
“primary, private individual conduct” non-criminal—
the state may no longer criminalize that conduct.
Here the “primary conduct” is refusing a DUI
blood draw. Under Birchfield v. North Dakota, 136 S.
Ct. 2160 (2016), that conduct is still criminal.
Birchfield requires the state to obtain a search
warrant or prove a warrant exception—steps that do
nothing to decriminalize the primary conduct.
Birchfield’s new rule is therefore procedural. In
any event, Teague-Birchfield claims are necessarily
rare, and are headed for extinction. This case does
not warrant certiorari.
Jeffrey Alan Olson entered an open guilty plea to
driving under the influence in the Court of Common
Pleas of Somerset County, Pennsylvania, on
September 18, 2015. This was Olson’s third DUI
conviction (N.T. 12/21/15, 5). His refusal to allow a
blood test required a mandatory one-year maximum
term for the DUI offense under 75 Pa.C.S. §
3804(c)(3)(i). In addition, Olson’s combination of
multiple prior offenses and refusal of blood testing
increased the grade of the DUI offense to a
misdemeanor of the first degree under 75 Pa.C.S. §
3803(b)(4), allowing a maximum term of five years
pursuant to 18 Pa.C.S. § 1104. On December 21,

3

2015, the Honorable John M. Cascio imposed a
sentence of 18 to 60 months of imprisonment.
Olson did not appeal. His judgment became final
on January 20, 2016, with the expiration of the 30
day period for seeking direct review. 42 Pa.C.S. §
9545(b)(3)(“a judgment becomes final at the
conclusion of direct review … or at the expiration of
time for seeking the review”).
Birchfield was decided five months later, on June
23, 2016. On August 17, 2016, Olson filed a petition
for state collateral review, claiming that criminal
penalties for refusing the blood test were barred by
Birchfield. Judge Cascio denied the petition on
December 23, 2016.
Olson appealed to the Pennsylvania Superior
Court. Consistent with this Court’s precedents, that
court decided that Birchfield does not apply
retroactively to final judgments on collateral review,
because its new rule “does not alter the range of
conduct or the class of persons punished,” but
“regulates only the manner of determining” the
degree of the offender’s culpability and punishment.
Commonwealth v. Olson, 179 A.3d 1134, 1139 (Pa.
Super. 2018). Olson sought and was granted further
review in the Pennsylvania Supreme Court, which
affirmed, agreeing that the new rule in Birchfield is
not substantive under Teague. Quoting Birchfield,
that court emphasized that “a State may [still]
criminalize the refusal to comply with a demand to
submit to the required testing” provided it complies
with the warrant requirement. Commonwealth v.

4

Olson, 218 A.3d 863, 872 (Pa. 2019); Birchfield, 136
S. Ct. at 2172.
Olson then filed the instant petition. This Court
directed the filing of a formal response.
Reasons for Denying the Writ
1.

Certiorari is unwarranted for this
vanishing issue.

In the years since Birchfield v. North Dakota, 136
S. Ct. 2160 (2016) was decided, a Birchfield-Teague
claim (Teague v. Lane, 489 U.S. 288 (1989)) has been
raised and decided in only four state supreme courts,
and one federal court, Hanzik v. Davis, No. 3:16-CV291, 2017 WL 5178796, at *2–3 (S.D. Tex. Nov. 7,
2017) (“The question of whether a state may
criminalize a suspected drunk driver's refusal to
submit to a warrantless blood draw has nothing to do
with whether that state may criminalize drunk
driving itself; it relates solely to the issue of how the
Fourth Amendment allows the culpability for drunk
driving to be determined”).
The claim may not reappear. Even in the few
jurisdictions that criminalize refusing a blood draw, 1
A June 2018 survey by the National Association of State
Legislatures found that only 11 jurisdictions impose additional
criminal
penalties
for
refusing
a
blood
draw:
https://www.ncsl.org/Portals/1/Documents/transportation/Crimi
nal_or_Ehanced_Civil_penalties_implied_consent_refusal_2713
5.pdf
1

5

DUI sentences are usually brief. (Olson’s five year
maximum was unusually high as this was his third
offense). Collateral review in which Teague applies is
generally restricted to offenders in custody. Since the
direct appeal process can be lengthy (Olson was
unusual in that he did not file one), DUI offenders
eligible for collateral review are rare.
Since 2016, of course, offenders with a Birchfield
claim have either raised it on appeal or waived it,
which rules out a Teague issue. Olson, whose
judgment became final just a few months before
Birchfield was decided, is unusual in that he
benefitted from a peculiarity of Pennsylvania law
holding that sentencing illegality claims cannot be
waived. Commonwealth v. Olson, 218 A.3d 863, 867
(Pa. 2019) (“a challenge to such a sentence implicates
the sentence’s legality, and thus is nonwaivable”).
In short, the Birchfield-Teague issue is a rara avis
likely headed toward extinction. It may not appear
again in the few remaining jurisdictions that
criminally penalize blood test refusal.
Because this case does not present a question that
goes “beyond the academic,” see Rice v. Souix City
Memorial Park Cemetery, 349 U.S. 70, 74 (1955),
certiorari is unwarranted.

6

2. Birchfield’s new rule applying the Fourth
Amendment search warrant requirement is
procedural under Teague.
Teague establishes a general rule against
retroactive application of new rules on collateral
review. “[N]ew constitutional rules of criminal
procedure will not be applicable to those cases which
have become final before the new rules are
announced.” Welch v. United States, 136 S. Ct. 1257,
1264 (2016); Teague, 489 U.S. at 310. There are two
“narrow exceptions,” O'Dell v. Netherland, 521 U.S.
151, 157 (1997), to the Teague rule; only the first—
for “new substantive rules,” Welch, id. (citations
omitted)—is relevant here. 2
Because a blood draw is a search of the person,
Birchfield held that a warrant must be secured, or a
warrant exception established, to justify a state’s
demand for one. Birchfield, 136 S. Ct. at 2173-2174. 3
The Teague exception for “watershed” rules has not been
invoked by petitioner, and in any event has proven to be
chimerical. E.g., Whorton v. Bockting, 549 U.S. 406, 417-418
(2007) (“in the years since Teague, we have rejected every claim
that a new rule satisfied the requirements for watershed
status”) (collecting cases); Beard v. Banks, 542 U.S. 406, 417
(2004) (“it should come as no surprise that we have yet to find a
new rule that falls under the second Teague exception”).
2

This rule is new. Prior decisions held that compelling a blood
test did not require a warrant and did not violate the Fourth
Amendment. Schmerber v. California, 384 U.S. 757 (1966);
South Dakota v. Neville, 459 U.S. 553, 559 (1983) (Schmerber
“clearly allows a State to force a person suspected of driving
while intoxicated to submit to a blood alcohol test”).
3

7

Petitoner argues that this Fourth Amendment ruling
is “substantive,” and thus retroactive, under Teague.
But a substantive rule is one that categorically bars
prosecution of certain primary conduct. E.g., Texas v.
Johnson, 491 U.S. 397 (1989) (barring prosecution of
burning the American flag). Birchfield does not do
that. 4
Where the crime consists of refusing a blood
draw, the “primary, private individual conduct,”
Montgomery v. Louisiana, 136 S. Ct. 718, 729 (2016),
is the refusal. See Lindh v. Murphy, 521 U.S. 320,
341 (1997) (“the primary conduct occurred when
Lindh murdered two people”). Had Birchfield stated
a substantive rule, states could no longer prosecute
refusal of a blood draw. Nothing a state could do
would permit it. Welch v. United States, 136 S. Ct. at
1265 (under a substantive rule even the use of
“impeccable” process could not authorize criminal
sanction); Montgomery, 136 S. Ct. at 730 (same).

A new rule may also be substantive if it prohibits “a certain
category of punishment for a class of defendants because of
their status or offense.” Montgomery v. Louisiana, 136 S. Ct. at
732 (citations omitted); e.g., Roper v. Simmons, 543 U.S. 551
(2005) (barring capital punishment for juvenile offenders).
Birchfield, however, obviously did not discuss any class of
defendants or bar any specific punishment. In addition, a new
decision that alters a statue is substantive if it “alter[s] the
range of conduct or the class of person” the statute punishes.
Welch v. United States, 136 S. Ct. at 1264, 1267. Birchfield,
however, did not discuss, or even mention, the terms of any
statute.

4

8

Here instead, the primary conduct that was
criminal before Birchfield remains criminal after
Birchfield. Schriro v. Summerlin, 542 U.S. 348, 354
(2004) (new rule not substantive because “the range
of conduct punished by death in Arizona was the
same before [the new rule] as after”). This Court said
as much in Birchfield itself, explaining that “a State
may criminalize the refusal to comply with a demand
to submit to the required testing” provided “such
warrantless searches comport with the Fourth
Amendment.” Birchfield, 126 S. Ct. at 2172. Under
Birchfield the state is free to prosecute the primary
conduct of refusing a blood draw provided it obtains a
search warrant or proves a warrant exception. If the
rule was substantive, no prosecution would be
possible regardless of what steps the state might
take.
Birchfield thus establishes a procedural rule.
Requiring Fourth Amendment justification for police
conduct does not categorically bar the prosecution of
any “primary, private individual conduct.” A Fourth
Amendment ruling can limit states’ ability to
prosecute individual homicides, for example, but that
does not decriminalize homicides in general. See
Butler v. McKellar, 494 U.S. 407, 415 (1990) (new
limit on interrogations did not place “individual
conduct beyond the power of the criminal lawmaking authority to proscribe”; “[t]he proscribed
conduct in the instant case is capital murder, the

9

prosecution of which is, to put it mildly, not
prohibited by the rule”). 5
Alleyne v. United States, 133 S. Ct. 2151 (2013), is
illustrative. It requires states to treat acts (other
than a prior conviction) that increase the minimum
penalty as elements of a crime. Such conduct must
therefore (inter alia) be found at trial, by a jury,
beyond a reasonable doubt. But Alleyne does not bar
criminalizing any conduct. Quite to the contrary, like
Birchfield it specifies the procedural measures that
are needed to prosecute the primary conduct. It is not
substantive. See Alleyne, 133 S. Ct. at 2164
(Sotomayor, J., concurring) (explaining that
in Alleyne “procedural rules are at issue”); id. at 2173
n. * (Alito, J., dissenting) (Alleyne involves a
procedural rule).
In this case the Pennsylvania Supreme Court
correctly recognized that Birchfield, like Alleyne,
does not categorically decriminalize the primary
conduct of refusing a blood draw. 218 A.3d at 873874 (“Birchfield does not prohibit the imposition of
criminal penalties for the refusal,” but “set[s] forth
conditions necessary to” do so) (citing Alleyne and

Butler concerned a new Fifth Amendment rule in Arizona v.
Roberson, 486 U.S. 675 (1988), which extended the bar to police
interrogations announced in Edwards v. Arizona, 451 U.S. 477
(1981), to cases in which the police seek to question a suspect
about an offense unrelated to the subject of the initial
investigation.

5

10

Montgomery). It accurately applied this Court’s
precedent. 6
The defect in petitioner’s position is his attempt
to expand the definition of “primary, private
individual conduct” to include its opposite—conduct
by the state. He identifies the primary conduct here
as “refus[ing] consent to a blood draw in the absence
of a warrant or [warrant] exception” (Pet. 13), and
characterizes Birchfield as imposing a “prohibition
on imposing criminal penalties in the absence of a
warrant or exigent circumstances” (Pet. 18).
That argument conflates primary conduct with
state action. While under a substantive rule nothing
a state does will permit it to prosecute, under
petitioner’s conception of primary conduct the state’s
ability to prosecute is contingent on its compliance
with the warrant requirement. The latter is conduct
by the state, not the primary conduct that constitutes
the offense. No state has specifically criminalized
“blood test refusal in the absence of a warrant or
warrant exception” rather than “blood test refusal,”
and doing so would obviously run afoul of Birchfield.
But if one did, the “primary, private individual”
conduct would remain the refusal, not the absence of
a search warrant or an exception. Just as in Butler
6

The dissenting opinion of Chief Justice Saylor deemed the right to be
free from unreasonable searches “substantive” because of its importance.
218 A.3d at 876-877. But “substantive” is not a synonym for “important.”
As this Court recognized in Welch, the Teague exception for substantive
rules depends on “the function of the rule, not its underlying
constitutional source.” 136 S. Ct.at 1265.

11

restriction on interrogations did not decriminalize
homicide by disallowing “homicides proved with
improper interrogations,” Birchfield did not
decriminalize refusal by preventing penalties for
some refusals based on state conduct, i.e., “blood test
refusal in the absence of a warrant or warrant
exception.”
Petitioner notes that his position has been
accepted by three states: Morel v. State, 912 N.W.2d
299 (ND 2018); Johnson v. State, 916 N.W.2d 674
(Minn. 2018); and State v. Vargas, 404 P.3d 416 (NM
2017). But while a split of authority may generally
support a grant of certiorari, these decisions contain
no analysis when it comes to defining primary
conduct under Teague. Rather, they assume, without
discussion, that primary conduct may include a
combination of private and state conduct.
The Morel Court articulated that substantive
rules “place a particular conduct beyond the state’s
power to punish,” 912 N.W.2d at 304, but did not
otherwise address the question of whether Birchfield
decriminalized primary conduct. The Vargas Court
similarly announced, without further explanation,
that the “primary, private, individual conduct” in
question is refusal of “warrantless” blood tests. 404
P.3d at 420. But lack of a warrant is state conduct,
not primary conduct. Finally, the Johnson Court
rejected the state’s contention that Birchfield
“modified [only] police conduct” on the ground that
“no procedure” could validate prosecution of a refusal
“when the police did not have a warrant or a warrant
exception.” 916 N.W.2d at 683. But that, once again,

12

conflates private and state conduct. Getting a
warrant or proving an exception are procedures
undertaken by the state, not primary conduct.
Should this issue ever be raised elsewhere,
therefore (and that is unlikely), the next jurisdiction
will have the benefit of the Pennsylvania Supreme
Court’s analysis, and so will be unlikely to repeat the
error of the three states on which petitioner relies.
Petitioner further argues that Birchfield must be
substantive because it supposedly does not meet the
definition of a procedural rule (Pet. 18). Unlike a
substantive rule that places “certain criminal laws
and punishments altogether beyond the State’s
power to impose,” a procedural rule promotes “the
accuracy of a conviction or sentence” by governing
the “manner of determining” culpability. Montgomery
v. Louisiana, 136 S. Ct. at 729-730 (emphasis
omitted).
But the latter describes Birchfield. Actions that
the state must take in order to prosecute or convict,
such as compliance with the search warrant
requirement, obviously concern the “manner of
determining” culpability, not whether the offense is
categorically invalid to begin with. In any event,
even if Birchfield did not fall neatly into the
definition of a procedural rule, this Court has never
held that whatever is not procedural is therefore
substantive, however unrelated to primary conduct.
As Montgomery further explains, the reason
Teague excludes substantive rules is that they do not

13

implicate the states’ interest in avoiding continual
marshaling of resources on collateral review. Under a
substantive rule that is not a problem, because the
state had no power to impose the conviction to begin
with, and no amount of mustering of resources could
matter. 136 S. Ct. at 732.
That again contrasts with Birchfield, under which
a state may uphold the judgment by proving exigent
circumstances—something that may be difficult on
collateral review, but is certainly not impossible. See
Mitchell v. Wisconsin, 139 S. Ct. 2525, 2539 (2019)
(plurality) (remanding for proceedings regarding
exigent circumstances, explaining that police may
“almost always” justify a warrantless blood test for
stuporous or unconscious suspects); 2539-2540
(Thomas, J., concurring) (exigency to obtain blood
test should be recognized per se).
Treating Birchfield as if it were substantive
would be particularly inappropriate under the
reasoning of Teague. In many pre-Birchfield cases (if
not most, as Mitchell suggests) the state might well
have established exigent circumstances had the law
required it at the time. Applying Birchfield
retroactively would make proper convictions appear
otherwise only because evidence of exigency was lost
due to the passage of time. That would frustrate
precisely those “interests in finality, predictability
and comity,” Stringer v. Black, 503 U.S. 222, 228
(1992), that Teague protects.

14

In summary, not only is petitioner’s claim
unlikely to recur, it is unsuitable for review because
it is devoid of merit. The petition should be denied.
Conclusion
For
these
reasons,
the
Commonwealth
respectfully requests that this Court deny the
petition for a writ of certiorari.
Respectfully submitted,
/s/
HUGH J. BURNS, JR.
Senior Deputy Attorney General
(Counsel of Record)
JENNIFER SELBER
Executive Dep. Attorney General
Criminal Law Division
MICHELLE HENRY
First Deputy Attorney General
JOSH SHAPIRO
Attorney General of
Pennsylvania
1600 Arch Street
Philadelphia, PA 19103
(484) 390-5143
hburns@attorneygeneral.gov

